U.S. Department of the Interior
Office of Inspector General




          SURVEY REPORT


     LAND ACQUISITION ACTIVITIES,
       BUREAU OF RECLAMATION

            REPORT NO. 00-I-282
                MARCH 2000
U.S. Department of the Interior                            Office of the Inspector General


                             EXECUTIVE SUMMARY
                               Land Acquisition Activities,
                                 Bureau of Reclamation
                                   Report No. 00-I-282
                                      March 2000

BACKGROUND

In 1987, the Bureau of Reclamation (BOR) changed its mission focus from one of
developing large, Federally tided water projects to that of managing water resources, with
an emphasis on water conservation and the environment. Recently, BOR has been acquiring
land primarily for the protection, restoration, and enhancement of fish, wildlife, and
associated habitats in order to mitigate the environmental impacts of its water development
projects. In situations where BOR must act expeditiously to prevent the sale of desired
property to other parties, where landowners are reluctant to sell directly to BOR, or where
funds are not available, BOR may acquire land with the assistance of nonprofit organizations.
In these instances, nonprofit organizations either purchase the land or obtain a purchase
option with the intention of selling the land to BOR. During fiscal years 1996 through 1998,
BOR acquired 668 parcels of land, at a cost of about $27.3 million.

OBJECTIVE

The objective of the review was to determine whether BOR conducted its land acquisition
activities in accordance with applicable laws and regulations and paid a fair price-for the
land acquired.

RJWJLTS IN BRIEF

We concluded that BOR generally conducted its land acquisition activities in accordance
with applicable laws and regulations and paid a fair price for the land it acquired. However,
BOR had not developed guidelines for conducting transactions with nonprofit organizations.
As such, BOR had no formal criteria for establishing the respective roles and responsibilities
of BOR and the nonprofit organizations or for determining the basis for reimbursing these
organizations for acquisition-related expenditures.

RECOlMMJWDATION

We recommended that the Commissioner, BOR, develop guidance for conducting land
acquisitions with the assistance of nonprofit organizations. This guidance should be similar
to the Department of the Interior’s 1983 “Guidelines for Transactions Between Nonprofit
Conservation Organizations and Federal Agencies,” as clarified in August 1995 and July
1996 memoranda, which was established for the Land and Water Conservation Fund realty
purchases.

AUDITEE COMMENTS AND OIG EVALUATION

BOR agreed with the report’s recommendation and stated that the guidance would be
developed by October 3 1,200O. Based on the response, we considered the recommendation
resolved but not implemented.
                                                                                 W-IN-BOR-004-99-R


                 United States Department of the Interior
                                 OFFICE OF INSPECTOR GENERAL
                                       Washington, DC 20240




                                     SURVEY REPORT

Memorandum

To:        Assistant Secretary for Water and Science

From:      Roger La Rouche TpLTA
           Acting Assistant Inspector General for Audits

Subject: Survey Report on Land Acquisition Activities, Bureau of Reclamation
         (No. 00-I-282)

                                     INTRODUCTION
This report presents the results of our survey of the Bureau of Reclamation’s (BOR) land
acquisition activities.’ The objective of the review was to determine whether BOR
conducted its land acquisition activities in accordance with applicable laws and regulations
and paid a fair price for the land acquired.

BACKGROUND
                                                                    2
BOR acquires land for its water projects and for mitigation and conservation purposes. The
land is acquired through purchase, donation, transfer from other Federal agencies, exchange,
and condemnation. In 1987, BOR changed its mission focus from one of developing large,
Federally funded water projects to that of managing water resources, with an emphasis on
water conservation and the environment. Recently, BOR has been acquiring land primarily
for the protection, restoration, and enhancement of fish, wildlife, and associated habitats in
order to address the environmental impacts of its water development projects. In situations
where BOR must act expeditiously to prevent the sale of desired property to other parties,
where landowners are reluctant to sell directly to BOR, or where funds are not available,
BOR may acquire land with the assistance of nonprofit organizations. In these instances,
nonprofit organizations, such as The Conservation Fund, The Trust for Public Lands, The


‘Land acquisitions may ehtail the purchase of outright ownership, known as “fee simple” ownership, or the
purchase of significant interests in land, such as easements for conservation or access purposes. The terms
“acquisition” or “purchase” throughout this report will refer to either of these.

*Mitigation is the reduction of the environmental impact caused by water development projects.

                                                     3
Nature Conservancy, and the River Network, either purchase the land or obtain a purchase
                                                                                   I.
option with the intention of selling the land to BOR.

During fiscal years 1996 through 1998, BOR acquired 668 parcels of land, at a cost of about
$27.3 million (Appendix 1). Of these 668 parcels, 341 parcels were acquired at a cost of
about $25.1 million by the three regions (Mid-Pacific, Upper Colorado, and Pacific
Northwest Regions) visited during our survey. The three regions acquired an additional
79 parcels, at a cost of about $12.7 million, during the period of October 1998 through May
1 9993 (Appendix 2). Realty officials estimated that they will acquire about 1,700 parcels
(about 75,000 acres) of land during fiscal years 1999 and 2000, for about $57.5 million.”

SCOPE OF SURVEY

We conducted our survey from May through September 1999 at the BOR offices listed in




period of October
1,1995,                             1,1999,      a t       t h r e e      o ffive B O R ’ s




ofthemillion, or 26 percent
$9.8
2),           6 transactions totaling $7.4 million                                                              involve
This report covers the results of our review of 12 of the 13 transactions. A separate report



‘We did not obtain the fiscal year 1999 data for the two regions not visited because this information was not
readily available.

4This amount includes the $12.7 million for land acquired during the period of October 1998 through May
1999 by the three regions visited.

‘Program managers interviewed included financial, environmental, and other program-specific managers, such
as the Yakima River Basin Water Enhancement Program Manager.

                                                       4
will be issued on the results of our review of the remaining transaction, the Jasper Land
Exchange, which is being conducted by BOR’s Pacific Northwest Region.                .’

Our survey was conducted in accordance with the “Government Auditing Standards,” issued
by the Comptroller General of the United States. Accordingly, we included such tests of
records and other auditing procedures that were considered necessary to accomplish our
objective. As part of the survey, we reviewed BOR’s annual assurance statements on
management controls and the Departmental Reports on Accountability for fiscal years 1996,
1997, and 1998, all of which included information required by the Federal Managers’
Financial Integrity Act, and determined that no material weaknesses were reported that
directly related to the objective and scope of our survey.

We also reviewed the system of internal controls over BOR’s land acquisition activities,
specifically as they apply to BOR’s appraisal processes and its transactions with nonprofit
organizations. We found that BOR had generally conducted land acquisition activities in
accordance with applicable laws and regulations and paid a fair price for the land acquired.

In none of the cases tested did the amount paid exceed the limits of BOR officials’ authority.6
However, we found that BOR had not established guidelines, policies, or procedures for
working with the nonprofit organizations. (This issue is addressed in the Results of Survey
section of this report.) Our recommendation, if implemented, should improve the process
of acquiring land with the assistance of nonprofit organizations. Because our survey covered
26 percent of the value of the land transactions at the three regions reviewed and did not
identifir any significant deficiencies, we discontinued our review after the survey phase.

PRIOR AUDIT COVERAGE

During the past 7 years, neither the Office of Inspector General nor the General Accounting
Office has issued any reports regarding land acquisition activities of BOR. However, the
Office of Inspector General issued the audit report “Department of the Interior Land
Acquisitions Conducted With the Assistance of Nonprofit Organizations” (No. 92-I-833)
in May 1992, which addressed land acquisitions made by the National Park Service, the U.S.
Fish and Wildlife Service, and the Bureau of Land Management. The report concluded that
nonprofit organizations provided beneficial assistance in acquiring lands identified as priority
acquisitions by the Department or the Congress but that certain transactions were not
sufficiently controlled to ensure that the Government’s interests were adequately protected
and that nonprofit organizations did not benefit unduly. The report also stated that none of
the three bureaus fully complied with established appraisal standards, which required that
estimates of property values be timely, independent, and adequately supported by market


6According to the Reclamation Manual (LND 02, paragraph 7.G( l)), regional directors or their designees may
acquire land above the appraised value as follows: without limitation if the appraised amount is less than
$100,000, by I5 percent if the appraisal amount is between $100,000 and $500,000, and by 10 percent if the
appraisal amount is over $500,000. Approval by the Chief Realty Officer is required if the purchase price of
the land exceeds these limitations. In each case, we determined that the price paid was based on an appraisal
that was reviewed and approved by a review appraiser and that the basis for any additional amounts was
documented in the files and did not exceed the amounts specified in the Reclamation Manual.
data. As a result, according to the report, the Department had little assurance that the fair
market value estimates used to establish land acquisition prices were timely, complete, and
accurate. The report contained seven recommendations to improve controls over land
acquisition activities and to ensure that transactions conducted with the assistance of
nonprofit organizations are performed in a uniform and consistent manner throughout the
Department. As a result of the audit, in August 199.5, the Department’s Assistant Secretary
for Policy, Management and Budget issued the document “Clarifications to August lo,1983
Guidelines for Transactions Between Nonprofit Organizations and Agencies of the
Department of the Interior.” All seven recommendations were considered resolved and
implemented.

                                 RESULTS OF SURVEY
Based on the limited tests made during our survey, we concluded that BOR generally
conducted its land acquisition activities in accordance with applicable laws and regulations
and paid a fair price for the land it acquired. Specifically, we found that the 12 land
acquisitions reviewed were supported by appraisals conducted in accordance with applicable
standards. We also found that BOR paid a fair price for its land acquisitions because the
acquisitions were based on an appraised fair market value or on an adjusted value in
accordance with the Reclamation Manual. However, BOR had not developed guidelines for
conducting transactions with nonprofit organizations. As such, BOR had no formal criteria
for establishing the respective roles and responsibilities of BOR and the nonprofit
organizations or for determining the basis for reimbursing these organizations for
acquisition-related expenditures. The Chief Realty Officer said that specific guidelines had
not been developed because BOR has had only limited involvement with nonprofit
organizations assisting in land acquisitions. As a result, BOR may be hindered in using
nonprofit organizations effectively to acquire land needed to mitigate the environmental
impacts of its water development projects. Furthermore, according to one field official, BOR
has lost the opportunity to purchase certain water rights and some land with water rights
because of its inability to take actions in a timely manner.

We found that when the three BOR regional offices we reviewed contacted and established
a working relationship with the nonprofit organizations, they did not (1) adequately define
the respective roles and responsibilities of BOR and the nonprofit organization, (2) identify
projected time frames for the acquisition, and (3) specify BOR’s right to decline the purchase
without liability to the Federal Government. Of the six transactions’ involving nonprofit
organizations reviewed, we found that BOR initially contacted the nonprofit organizations
informally in four transactions, three by telephone and one by a facsimile letter that
contained only the name of the property to be acquired. BOR did not follow up with written
documentation establishing the roles and responsibilities of BOR and the nonprofit
organizations. Although BOR contacted the nonprofit organizations. by letter in the
remaining two transactions, the letters were not sufficient in establishing an effective




‘Of the six transactions reviewed, five transactions had been completed, and one transaction, which involved
land being acquired by the Upper Columbia Area Office, in Yakima, Washington, had not been completed.

                                                     6
working relationship. Specifically, in both transactions, the letter identified only the . . land
desired and discussed the appraised value of the subject land.

In the case reviewed at the Upper Columbia Area Office, a nonprofit organization wrote a
letter to the Office concerning its role in the Office’s land acquisition program. The
nonprofit organization stated that “[i]f Reclamation and the [Nature] Conservancy cannot
resolve the above matters [establish roles and responsibilities of the parties] in a timely
fashion, the Conservancy will need to move on to other pressing acquisition projects with
other agencies.” The nonprofit organization attached a sample letter and stated that it
“routinely” received such letters from other Federal agencies with which it had “an excellent
record of working successfully,” particularly with those agencies within the Department of
the Interior. We believe that the lack of definitive guidelines which identify the roles and
responsibilities ofBOR and the nonprofit organizations hinders both BOR and the nonprofit
organizations from effectively purchasing land from willing sellers in a competitive market.
In this case, land had not been acquired 10 months after BOR had contacted the nonprofit
organization in July 1998 to assist it with implementing a $9.6 million fish, wildlife, and
habitat protection and enhancement program in the Yakima and Umatilla River Basins. The
program is scheduled to be completed by the end of fiscal year 2001. Furthermore, in
correspondence with the nonprofit organization, a BOR official from the Area Office said
that BOR “has lost several opportunities to purchase water rights and land with water rights
in both the Yakima and Umatilla Basins to date due to our [the Area Office’s] inability to be
competitive in a timely manner.”

In addition to the lack of guidelines identifying the roles and responsibilities of BOR and the
nonprofit organizations, BOR did not have guidelines specifying the types of acquisition-
related expenses, such as appraisals, staff salaries, and travel, that could be reimbursed to the
nonprofit organizations. Of the six transactions reviewed, we found that none had written
agreements that adequately identified the acquisition-related expenses that would be
reimbursed. Rather, BOR officials reimbursed the nonprofit organizations for expenses on
a case-by-case basis. For example, in one transaction BOR paid the nonprofit organization
3 percent of the fair market value for indirect costs ($6,900). In another transaction BOR
paid $5,500 more than the appraised fair market value of the acquired land, which, according
to a Regional official, was for acquisition-related expenses. However, because of the lack
of documentation, the official did not know what specific acquisition-related expenditures
of the nonprofit organizations were reimbursed.

We believe that both BOR and the nonprofit organizations would benefit from clear
guidelines that establish the respective roles and responsibilities of each entity and identify
the types ofexpenditures to be reimbursed. In that regard, the Department in 1983 published
in the “Federal Register” the “Guidelines for Transactions Between Nonprofit Conservation
Organizations and Federal Agencies” for land transactions between nonprofit organizations
and the National Park Service, the U.S. Fish and Wildlife Service, the Bureau of Land
Management, and other Federal agencies that use funds appropriated from the Land and




                                               7
Water Conservation Fund.* The Department issued clarifications to these guidelines in
August 1995. The 1983 guidelines and the 1995 clarifications provide basic principles to
ensure that transactions with nonprofit organizations are conducted in a uniform and
consistent manner. The guidelines and clarifications, however, do not specifically apply to
BOR because it does not receive funding from the Land and Water Conservation Fund.
Nevertheless, we believe that guidelines similar to the existing Departmental guidelines
would provide BOR an appropriate mechanism for effectively working with nonprofit
organizations. These guidelines state that Federal agencies requesting the assistance of a
nonprofit organization in a proposed land acquisition do so with a letter of intent which
establishes the roles and responsibilities of the Federal agencies and the nonprofit
organizations. The guidelines state that the letter of intent, at a minimum, is required to
identify the land desired by the agency; state the estimated value of the land subject to future
appraisal; state the projected time frame for when the agency intends to acquire the property;
and contain a statement that if the agency is unable to or declines to purchase the land, the
Federal Government is not liable to the nonprofit organization for the disposition of the land.
These guidelines further state that the Federal agency’s purchase price should be either
(1) the fair market value of the property based on an approved appraisal or “such lesser figure
at which the nonprofit organization offers to sell the property” or (2) the nonprofit
organization’s cost to acquire the property at an amount “not to exceed the appraised fair
market value . . . plus related and associated expenses from a list approved by the Assistant
Secretary for Policy, Management and Budget.“’ BOR officials said that BOR intends to use
the assistance of nonprofit organizations more extensively to meet its mission in the future.
Accordingly, we believe that BOR should adopt guidelines which ensure that transactions
conducted with the assistance of nonprofit organizations are performed effectively and
consistently throughout BOR.

Recommendation
We recommend that the Commissioner, BOR, develop guidance for conducting land
acquisitions with the assistance of nonprofit organizations similar to the Department of the
Interior’s 1983 “Guidelines for Transactions Between Nonprofit Conservation Organizations
and Federal Agencies,” as clarified in August 1995 and July 1996 memoranda that were
established for the Land and Water Conservation Fund realty purchases.




‘The Land and Water Conservation Fund Act of 1965 (Public Law 88-578, as amended) established the Fund
to assist state and Federal agencies in meeting present and future outdoor recreation demands, including the
acquisition of land, water, or interests in land or waters.

‘The list of approved acquisition-related expenditures, such as appraisals and escrow fees, travel, and staff
salaries, that could be paid to nonprofit organizations is documented in a May 2, 1996, U.S. Fish and Wildlife
Service memorandumwhich was submitted to the Assistant Secretary for Policy, Management and Budget and
approved on July 18, 1996.

                                                      8
BOR Response and Office of Inspector General Reply

In the February 11, 2000, response (Appendix 4) to the draft report from the BOR
Commissioner, BOR concurred with the recommendation. Based on the response, we
consider the recommendation resolved but not implemented.             Accordingly, the
recommendation will be referred to the Assistant Secretary for Policy, Management and
Budget for tracking of implementation.

Since the report’s recommendation is considered resolved, no further response to the Office
of Inspector General is required (see Appendix 5).

Section S(a) of the Inspector General Act (5 U.S.C. app. 3) requires the Office of Inspector
General to list this report in its semiannual report to the Congress. In addition, the Office of
Inspector General provides audit reports to the Congress.




                                               9
                                                                                                                   APPENDIX 1


                     BUREAU OF RECLAMATION LAND ACQUISITIONS                                                       .
                         FOR FISCAL YEARS 1996 THROUGH 1998

                          Fiscal Year 1996           Fiscal Year 1997            Fiscal Year 1998                      Total
Region                   Tracts     Amount         Tracts      Amount          Tracts      Amount          Tracts        Amount
Pacific Northwest           38      $243,140          31        $355,052          45         $99,560         114          $697,752
Mid-Pacific                  3      1586,909            0                 0        7       1,932,400          10          3,5 19,309
Lower Colorado              16        841,140           2        275,820           2         773,400          20          I ,890,360
Upper Colorado*             27      5,241,961         29       5,206,714        161       10,435,624        217         20,884,299
Great Plains              112         122,571         92             71,857      103           68,432       307            262,860
    Totals                1 9 6 $8,035,721           154     $5,909,443        3 1 8 $13,309,416
                                                                               -                           668 $27.254,580
                                                                                                           -




‘The Upper Colorado Region’s amounts include $6,508,177 for 51 tracts that were purchased by BOR on behalf of the Utah Reclamation
Mitigation and Conservation Commission, another Federal agency, which paid for the acquired land.




                                                                10
                                                                                                                      APPENDIX 2


                           LAND ACQUISITIONS OF SELECTED
                          BUREAU OF RECLAMATION REGIONS
                    FOR FISCAL YEARS 1996-1999 (THROUGH MAY 1999)
                    AND NUMBER OF LAND ACQUISITIONS REVIEWED

 Acquisition Activities:

                             Pacific Northwest           Mid-Pacific             Upper Colorado                       Total
                             Tracts Amount            Tracts    Amount        Tracts      Amount         Tracts          Amount
 FY 1996 - FY 1998            114      $697,752         10     $3,519,309       217     $20,884,299        341         $25,101,360
 FY 1999 (May 1999)              5      291,650’          1     5,165,624         73       7,229,149        79           12,686>423
   Total                     119       $989,402       11       $8,684,933     290 $28,113,448’*            420         $37,787,783
                             B                        =                       B


Acquisitions Reviewed:

                             Pacific Northwest           Mid-Pacific             Upper Colorado                       Total
                             Tracts Amount            Tracts    Amount        Tracts      Amount         Tracts          Amount
 Acquisitions from
  nonprofits                     2     $411,732 I..      1     $5,165,624       3         $1,793,946          6 ‘**
                                                                                                                  l     $7,371,302
 All other acquisitions          1            0          1        117,972       5          2,349,551          7          2,467,523
     Total                   3         $411,732          2     $5,283,596     i=8         $4,143,497         13         $9,838,825
                             B

 Percent of amount
   reviewed                              4 1.6                    60.8                       14.7                             26.0




 *A land acquisition totaling $290,000 had not been fmalized as of September 1999; however, it was included in our review because
 this transaction is the first acquisition of a $9.6 million program and the Upper Columbia Area Office’s first attempt to use the
 assistance of a nonprofit organization in its land acquisition process.

 “The Upper Colorado Region’s amounts include $9,142,687 for 61 tracts that were purchased by BOR on behalf of the Utah
 Reclamation Mitigation and Conservation Commission, another Federal agency, which paid for the acquired land.

 “‘No money was exchanged in this land exchange transaction.

 ““The six tracts, with a total value of $7,371,302, represent all of the land acquisitions that were performed with the assistance
 of nonprofit organizations at the three regions visited.


                                                                 11
                                                           APPENDIX 3


                        BUREAU OF RECLAMATION                        ..
                      OFFICES VISITED OR CONTACTED

                      Office                          Location

Program Analysis Office                     Denver, Colorado

Mid-Pacific Regional Office                 Sacramento, California

    Klamath Basin Area Office               Klamath Falls, Oregon

Pacific Northwest Regional ,Office          Boise, Idaho

    Snake River Area Office*                Boise, Idaho

    Upper Columbia Area Office              Yakima, Washington

         Ephrata Field Office               Ephrata, Washington

Upper Colorado Regional Office              Salt Lake City, Utah

    Western Colorado Area Office

        Northern Division*                  Grand Junction, Colorado

         Southern Division*                 Durango, Colorado




‘Offices contacted.




                                     12
                                                                                   APPENDIX 4




                   United States Department of the Interior
                                     BUREAU OF RECLAMATION
                                          Washington, I).<:. 20240




    D-5010




                                           MEMORANDUM
~

    ‘1‘0:          Office of Inspector General
                    Attention: Assistant Inspector

    From:


    Subject:                                                              ureau of Reclamation”
                   (Assignment No. W-IN-BOR-004-99-R)

    The Bureau of Reclamation offers the following comments in response to the recommendation in
    the subject report:

    Recommendation 1

    We recommend that the Commissioner, Bureau of Reclamation, develop guidance for conducting
    land acquisitions with the assistance of nonprofit organizations similar to the Department of
    Interior’s 1983 “Guidelines for Transactions Between Nonprofit Conservation Organizations and
    Federal Agencies,” as clarified in August 1995 and July 1996 memoranda, that were established
    for the Land and Water Conservation Fund realty purchases.

             Resnonse

            Concur. We are encouraged that your audit found that Reclamation’s land acquisition
            program is being effectively managed and consistent with those Federal laws applicable
            to our land acquisition program activities. In response to the recommendation,
            Reclamation will prepare guidance for conducting land acquisitions with nonprofit
            organizations. This guidance will be completed by October 3 1, 2000. The responsible
            official is the Director, Office of Policy.

    cc:     Assistant Secretary - Water and Science
             Attention: Laura Brown




                                                      13
                                                                   APPENDIX 5




       STATUS OF SURVEY REPORT RECOMMENDATION


Finding/Recommendation
        Reference               Status                 Action Required

           1             Resolved; not        No further response to the Office
                         implemented.         of Inspector General is required.
                                              The recommendation will be
                                              referred to the Assistant Secretary
                                              for Policy, Management and
                                              Budget for tracking of
                                              implementation.




                                         14
                  ILLEGAL OR WASTEFUL ACTIVITIES
                      SHOULD BE REPORTED TO
                 THE OFFICE OF INSPECTOR GENERAL


                     Internet Complaint Form Address


                   http://www.oig.doi.gov/hotline_form.html


                   Within the Continental United States
U.S. Department of the Interior                        Our 24-hour
Office of Inspector General                            Telephone HOTLINE
1849 C Street, N.W.                                    l-800-424-508 1 or
Mail Stop 5341 - MIB                                   (202) 208-5300
Washington, D.C. 20240-0001
                                                       TDD for hearing impaired
                                                       (202) 208-2420


                  Outside the Continental United States

                                    Caribbean Region
U.S. Department of the Interior                        (703) 2359221
Office of Inspector General
Eastern Division - Investigations
4040 Fairfax Drive
Suite 303
Arlington, Virginia 22203

                                     Pacific Region
U.S. Department of the Interior                        (671) 647-6060
Office of Inspector General
Guam Field Office
415 Chalan San Antonio
Baltej Pavilion, Suite 306
Agana, Guam 969 11
U.S. Department of the Interior
Office of Inspector General
1849 C Street, NW
Mail Stop 5341- MIB
Washington, D.C. 20240-000 1

Toll Free Number
      l-800-424-508 1

Commercial Numbers
   (202) 208-5300
   TDD (202) 208-2420
